Appellate Case: 20-1249

Document: 010110408373

Date Filed: 09/17/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

September 17, 2020
Christopher M. Wolpert
Clerk of Court

ALBERTO MATIAS-MARTINEZ,
Petitioner - Appellant,
v.
DEAN WILLIAMS; ATTORNEY
GENERAL STATE OF COLORADO,

No. 20-1249
(D.C.No. l:19-CV-02993-LTB-GPG)
(D. Colo.)

Respondents - Appellees.

ORDER DENYING CERTIFICATE OF APPEALABILITY*

Before MATHESON, KELLY, and EID, Circuit Judges.

Petitioner-Appellant Alberto Matias-Martinez, an inmate appearing pro se, seeks a
Certificate of Appealability (COA) to appeal from the district court’s order dismissing
with prejudice his application for a writ of habeas corpus, 28 U.S.C. § 2254, as untimely. i
To obtain a COA Mr. Matias-Martinez must make “a substantial showing of the denial of
a constitutional right.” 28 U.S.C. § 2253(c)(2). Where, as here, the district court denies a
habeas application on procedural grounds, the movant must show that reasonable jurists

* This order is not binding precedent except under the doctrines of law of the case,
res judicata, and collateral estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
1 Mr. Matias-Martinez also moves the court to take judicial notice of a document
filed in the district court. This document is included in the record on appeal, so judicial
notice is not necessary. See R. 273.

Appellate Case: 20-1249

Document: 010110408373

Date Filed: 09/17/2020

Page: 2

would find the procedural ruling debatable, as well as the underlying constitutional
claims. Slack v. McDaniel. 529 U.S. 473, 484 (2000).
Mr. Matias-Martinez was convicted of two counts of first-degree felony murder
and sentenced to life in prison without the possibility of parole. The Colorado Court of
Appeals affirmed on direct appeal. People v. Matias-Martinez. Colo. App. No.
93CA1938 (Nov. 9, 1995) (unpublished). In 1997, Mr. Matias-Martinez sought state
postconviction relief, which the state district court denied. On appeal, the Colorado
Court of Appeals affirmed but remanded to the state district court with directions to issue
letters rogatory to Mexico so that defense counsel could obtain statements from
individuals then incarcerated in that country. People v. Martinez. Colo. App. No.
02CA2256 (Feb. 10, 2005) (unpublished). The Colorado Supreme Court denied
certiorari. Matias-Martinez v. People. Colo. No. 05SC226 (June 20, 2005) (unpublished).
The state district court issued the letters as directed and Mr. Matias-Martinez eventually
filed another motion for state postconviction relief in 2012.
The district court adopted a recommendation of a magistrate judge that Mr.
Matias-Martinez’s application be dismissed as untimely. The magistrate reasoned that
the one-year limitation period, 28 U.S.C. § 2244(d), had run between the denial of
certiorari on the postconviction claim by the Colorado Supreme Court in 2005 and the
filing of Mr. Matias-Martinez’s motion for state postconviction relief in 2012 ,seven
years later. The magistrate judge also rejected Mr. Matias-Martinez’s claim that state
action prevented him from timely filing, that equitable tolling should apply, and that he
qualified for an exception because he could make a credible showing of actual innocence.
2

Appellate Case: 20-1249

Document: 010110408373

Date Filed: 09/17/2020

Page: 3

Initially, Mr. Matias-Martinez faces a different timeliness issue under this court’s
rules. The district court entered final judgment on May 13, 2020, which means that his
notice of appeal was due on or before June 12, 2020. Fed. R. App. P. 4(a)(1)(A). The
district court did not receive his notice until July 6, 2020. In response to this court’s
order to show cause, Mr. Matias-Martinez moved for and obtained an order from the
district court extending the time to file a notice of appeal or reopening the time to file an
appeal. The district court did not abuse its discretion in so ruling. Fed. R. App. P.
4(a)(5)(A) & 4(a)(6).
The habeas corpus limitation period is tolled for “[t]he time which a properly filed
application for State post-conviction or other collateral review with respect to the
pertinent judgment or claim is pending.” 28 U.S.C. § 2244(d)(2). Mr. Matias-Martinez
maintains that “the postconviction action was one continuous event” that only concluded
when his second motion for state postconviction relief was fully resolved. Aplt. Br. at 9.
But § 2244(d)(2) tolls the limitation period only while state courts review an application,
i.e. while it is “pending” under the statute. Lawrence v. Florida. 549 U.S. 327, 332
(2007). Mr. Matias-Martinez had no application for state postconviction relief under
review by Colorado courts between 2005 — when his first motion was resolved — and
2012 — when he filed his second motion. Accordingly, the one-year limitation period
ran during that time.
Mr. Matias-Martinez’s arguments for equitable tolling or actual innocence do not
make the district court’s rejection of them reasonably debatable. To qualify for equitable
tolling, Mr. Matias-Martinez must show “(1) that he has been pursuing his rights
3

Appellate Case: 20-1249

Document: 010110408373

Date Filed: 09/17/2020

Page: 4

diligently, and (2) that some extraordinary circumstance stood in his way.” Yang v.
Archuleta, 525 F.3d 925, 928 (10th Cir. 2008) (quoting Lawrence. 549 U.S. at 327).
Setting aside the diligence question, Mr. Matias-Martinez has shown no extraordinaiy
circumstance that would excuse his untimely filing. His reasonable, though mistaken,
understanding of the legal posture and effects of his motions and the proceedings in state
court do not meet the bar. See Marsh v. Soares. 223 F.3d 1217, 1220 (10th Cir. 2000).
Actual innocence “serves as a gateway through which a petitioner may pass” to
overcome the expiration of the limitations period. McOuiggin v. Perkins. 569 U.S. 383,
386 (2013). But “tenable actual-innocence gateway pleas are rare” because the petitioner
must show that “in light of the new evidence, no juror, acting reasonably, would have
voted to find him guilty beyond a reasonable doubt.” Id (quoting Schluo v. Delo. 513
U.S. 298, 329 (1995)). As the magistrate judge explained, the Innocence Project letter
and legal memorandum relied on by Mr. Matias-Martinez are not new, reliable
exculpatory evidence under Schlup. Even if the information related in the affidavit from
a fellow inmate is reliable and true, it fails to meaningfully call Mr. Matias-Martinez’s
conviction for felony murder into question, much less demonstrate that no juror could
reasonably vote to find him guilty beyond a reasonable doubt.

4

Appellate Case: 20-1249

Document: 010110408373

Date Filed: 09/17/2020

Page: 5

We DENY a COA, DENY IFP, and DENY as moot the motion to take judicial
notice.

Entered for the Court
Paul J. Kelly, Jr.
Circuit Judge

5

16

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Gordon P. Gallagher, United States Magistrate Judge
Civil Action No. 19-cv-02993-LTB-GPG
ALBERTO MATIAS-MARTINEZ,
Petitioner,
v.
DEAN WILLIAMS, and
THE ATTORNEY GENERAL OF THE STATE OF COLORADO,
Respondents.

RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE

This matter comes before the Court on the Application fora Writ of Habeas
Corpus Pursuant to 28 U.S.C. § 2254 filed pro se by Petitioner Alberto Matias-Martinez
on October 18, 2019. (ECF No. 1). The matter has been referred to this Magistrate
Judge for recommendation (ECF No. 17). 1
The Court must construe the application liberally because Petitioner is not
represented by an attorney. See Haines v. Kerner, 404 U.S. 519, 520-21 (1972); Hall v.

1 Be advised that all parties shall have fourteen (14) days after service hereof to serve and file any written
objections in order to obtain reconsideration by the District Judge to whom this case is assigned. Fed. R.
Civ. P. 72(b). The party filing objections must specifically identify those findings or recommendations to
which the objections are being made. The District Court need not consider frivolous, conclusive or
general objections. A party’s failure to file such written objections to proposed findings and
recommendations contained in this report may bar the party from a de novo determination by the District
Judge of the proposed findings and recommendations. United States v. Raddatz, 447 U.S. 667, 676-83
(1980); 28 U.S.C. § 636(b)(1). Additionally, the failure to file written objections to the proposed findings
and recommendations within fourteen (14) days after being served with a copy may bar the aggrieved
party from appealing the factual findings and legal conclusions of the Magistrate Judge that are accepted
or adopted by the District Court. Thomas v. Am, 474 U.S. 140, 155 (1985); Moore v. United States, 950
F.2d 656, 659 (10th Cir. 1991).

1

Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991). However, the Court should not be an
advocate for a pro se litigant. See Hall, 935 F.2d at 1110.
The Court has reviewed the filings to date. The Court has considered the entire
case file, the applicable law, and is advised of the premises. This Magistrate Judge
respectfully recommends dismissing the § 2254 application as untimely.

I.

BACKGROUND
The Colorado Court of Appeals summarized the underlying criminal prosecution

giving rise to this habeas action as follows:
In 1992, Juan and Aurelia Lara (the victims) were shot multiple times while
they were transporting $26,000 in cash to pay the onion field workers whom
they supervised. During the police investigation, Matias-Martinez’s wife
(Tanya Mackey) described how the murders occurred, including MatiasMartinez’s and codefendants’ participation in the crimes. Mackey recanted
those statements at the trial and testified that she made them because the
police had threatened her. But the statements were admitted as evidence.
In addition to Mackey’s statements, an eyewitness placed Matias-Martinez
at the crime scene. A jury found Matias-Martinez guilty of two counts of first
degree felony murder, and the court sentenced him to life in prison without
the possibility of parole. On appeal, a division of this court affirmed MatiasMartinez’s convictions and sentences. People v. Matias-Martinez, (Colo.
App. No. 93CA1938, Nov. 9, 1995) (not published pursuant to C.A.R. 35(f)).
(EOF No. 12-1 at 2).
As the appellate court put it: “The postconviction proceedings that followed have
a long and tortuous history.” (Id. at 3). However, the timeliness of this action hinges on
two postconviction filings. First, ”[i]n 1997, [Petitioner] filed a pro se Crim. P. 35(c)
motion, alleging that trial counsel was constitutionally ineffective (1997 motion).”2 (Id.).
On February 10, 2005, the Colorado Court of Appeals ruled on the district court’s denial

2 The Court also refers to the 1997 motion as “the first 35(c) motion" or “the initial 35(c) motion.”

2

of the 1997 motion. The Court of Appeals affirmed the district court’s denial of
postconviction relief, but reversed the district court’s denial of counsel’s request to issue
Letters Rogatory3 “with directions that the court issue the Letters Rogatory and order
that the costs associated with the issuance of the letters be paid.” (ECF No. 12-5 at 7).
A second 35(c) motion was filed in 2012. (Id.). The relevant details of the two
postconviction motions will be discussed below as they relate to accrual and tolling of
the statute of limitations.
Petitioner initiated this action on October 18, 2019 by filing an Application fora
Writ of Habeas Corpus Pursuant to 28 U.S.C. § 2254. (ECF No. 1). On November 19,
2019, the Court ordered Respondents Dean Williams and The Attorney General of the
State of Colorado (collectively, the “State of Colorado” or the “State”) to file a PreAnswer Response limited to addressing the affirmative defenses of timeliness under 28
U.S.C. § 2244(d) and exhaustion of state remedies pursuant to 28 U.S.C. §
2254(b)(1)(A). (ECF No. 6). On January 20, 2020, the State of Colorado filed a PreAnswer Response, arguing that this action is barred by § 2244(d)’s one-year limitation
period.4 (See ECF No. 12). On February 24, 2020, Mr. Martinez filed Applicant’s Reply
to Respondents’ Pre-Answer Response contending, among other things, that his
application should be considered timely because: (1) State action prevented him from
filing the application sooner; (2) his 1997 postconviction motion remained "pending” until

3 Letters Rogatory, referred to as a “letter of request” under Fed. R. Civ. P. 28, is defined as follows: "[A]
request issued to a foreign court requesting a judge to take evidence from a specific person within that
court’s jurisdiction.” Letters Rogatory, Garner’s Dictionary of Legal Usage, 540 (3d ed. 2011).
4 Because the Court finds the application untimely, it does not address exhaustion.

3

2019, which resulted in statutory tolling; (3) equitable tolling applies to his claims; and
(4) he is “actually innocent” of the crimes which he was convicted. (ECF No. 15 at 1-8;
12-25). The Court now addresses whether the application is timely.
II.

DISCUSSION
A. Accrual
The State of Colorado argues that the application is barred by the one-year

limitation period in 28 U.S.C. § 2244(d). That statute provides as follows:
(1)

A 1-year period of limitation shall apply to an application for a
writ of habeas corpus by a person in custody pursuant to the
judgment of a State court. The limitation period shall run from
the latest of(A) the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for
seeking such review;
(B) the date on which the impediment to filing an application
created by State action in violation of the Constitution or laws of
the United States is removed, if the applicant was prevented
from filing by such State action;
(C) the date on which the constitutional right asserted was
initially recognized by the Supreme Court, if the right has been
newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of
due diligence.

(2) The time during which a properly filed application for State post­
conviction or other collateral review with respect to the pertinent
judgment or claim is pending shall not be counted toward any
period of limitation under this subsection.
28 U.S.C. § 2244(d). Petitioner is not asserting a constitutional right newly recognized
by the Supreme Court and made retroactively applicable to cases on collateral review,
4

and he knew or could have discovered the factual predicate for each of his claims
before the proceedings relevant to the claims were final. See 28 U.S.C. §
2244(d)(1)(C)-(D).
But Petitioner does contend he was prevented by State action from filing this
application sooner. (ECF No. 15 at 4-7); see 28 U.S.C. § 2244(d)(1)(B). His argument
proceeds as follows: The Colorado Court of Appeals remanded the appeal of his initial
postconviction motion “with directions that the court issue the Letters Rogatory and
order that the costs associated with the issuance of the letters be paid.” (ECF No. 12-15
at 7). Counsel remained appointed. (ECF No. 15 at 3). Colorado law explicitly prohibits
the appointment of an attorney solely for the purpose of investigating the merit of a
defendant’s claims. (Id.). Therefore, because counsel continued to represent him,
Petitioner “reasonably and detrimentally relied upon state law for his belief that his
motion was [a] collateral attack motion [] properly pending.” (Id. at 4).
Petitioner’s reliance on § 2244(d)(1)(B) is misplaced. To start, generally
applicable legal precedent decided by Colorado courts regarding the appointment of
postconviction counsel cannot be characterized as “State action in violation of the
Constitution or laws of the United States.” And the contention that Petitioner was
“prevented” by State action from filing this action sooner is even more strained.
Merriam-Webster defines “prevent” as “to keep from happening or existing!;] to hold or
keep back[;] to deprive of power or hope of acting or succeeding.” Merriam-Webster’s
Online Dictionary, https://www.merriamwebster.com/dictionary/prevent (last visited Mar.
12, 2020). In no sense of the word did State action “prevent” the Petitioner from filing
this habeas action sooner. Rather, Petitioner’s own incorrect interpretation of the
5

interplay between state and federal law—even if reasonable—caused him to not file this
habeas action sooner. But “it is well established that ignorance of the law, even for an
incarcerated pro se petitioner, generally does not excuse prompt filing.” Marsh v.
Soares, 223 F.3d 1217, 1220 (10th Cir. 2000). As a result, the one-year limitation period
began to run from the date Petitioner’s conviction of judgment became final. See 28
U.S.C. § 2244(d)(1)(A).
Finality occurs on “the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for seeking such review[.]” 28
U.S.C. § 2244(d)(1)(A). Here, the Colorado Supreme Court denied certiorari review of
Petitioner's direct appeal on July 22, 1996. Because Petitioner did not file a petition for
certiorari review in the United States Supreme Court, his direct appeal proceeding
concluded when the time for filing a certiorari petition in the United States Supreme
Court expired. See Gonzalez v. Thaler, 565 U.S. 134, 150 (2012) (if a defendant directly
appeals to the state’s highest court, the conviction is final on the expiration of the 90day period for seeking certiorari in the United States Supreme Court); see also S. Ct. R.
13.1. Therefore, Petitioner’s conviction became final on October 21, 19965—90 days
after the Colorado Supreme Court’s July 22, 1996 denial of certiorari review—and the
AEDPA statute would have begun to run the following day. See Holland v. Florida, 560
U.S. 631, 635 (2010); Al-Yousifv. Trani, 779 F.3d 1173, 1178 (10th Cir. 2015).

5 The 90th day was actually Sunday, October 20, 1996. However, the deadline was extended to the next
business day Monday, October 21, 1996. See S. Ct. Rule 30.1 (time periods ending on a weekend or
holiday run through the next court business day).

6

B. Statutory Tolling
That is, the AEDPA statute would have begun to run unless statutory tolling
applies. Pursuant to § 2244(d)(2), a properly filed state court postconviction motion tolls
the one-year limitation period while the motion is pending. The issue of whether a state
court postconviction motion is pending for the purposes of § 2244(d)(2) is a matter of
federal law, but "does require some inquiry into relevant state procedural laws.” See
Gibson v. Klinger, 232 F.3d 799, 806 (10th Cir. 2000). The term “pending” includes “all
of the time during which a state prisoner is attempting, through proper use of state court
procedures, to exhaust state court remedies with regard to a particular post-conviction
application.” Barnett v. Lemaster, 167 F.3d 1321, 1323 (10th Cir. 1999).
Furthermore, “regardless of whether a petitioner actually appeals a denial of a
post-conviction application, the limitations period is tolled during the period in which the
petitioner could have sought an appeal under state law.” Gibson, 232 F.3d at 804. In
Colorado in 1996, a party had 45 days from a court’s written order to file an appeal.
Colo. App. R. 4(b)(1). But unlike a direct appeal, "the statute of limitations is tolled only
while state courts review the [postconviction] application.” Lawrence v. Florida, 549 U.S.
327, 332 (2007). “The application for state postconviction review is therefore not
‘pending’ after the state court’s postconviction review is complete, and § 2244(d)(2)
does not toll the 1-year limitations period during the pendency of a petition for certiorari
[in the United States Supreme Court].” Id.
Here, Petitioner filed a postconviction motion in state court under Colo. R. Crim.
P. 35(b) for reconsideration of his sentence on October 16, 1996. That filing tolled the
statute of limitations from October 21, 1996 (the date his conviction became final) until
7

December 16, 1996, which is when the time for appealing the state court’s October 30,
1996 ruling on the motion expired. From there, the statute ran for twenty-eight days until
January 13, 1997, which is when Petitioner’s first Colo. R. Crim. P. 35(c) motion was
filed. As Respondents explain, counsel was appointed and, for years, heavily litigated
the postconviction claims raised in that first motion. (See EOF No. 12 at 9-10). However,
on September 20, 2002, the state district court denied postconviction relief. {Id. at 10).
On February 10, 2005, the Colorado Court of Appeals affirmed the denial of
postconviction relief: “Those portions of the order upholding the validity of the Curtis
advisement, and denying defendant’s motion to amend his Crim. p. 35(c) motion to add
a discovery violation are affirmed.” (ECF No. 12-5 at 7). Yet the Court of Appeals
reversed the district court’s denial of counsel’s request to issues Letters Rogatory “with
directions that the court issue the Letters Rogatory and order that the costs associated
with the issuance of the letters be paid.” {Id. at 7). Petitioner sought the Letters
Rogatory to obtain information from “four potential alibi witnesses, who were
incarcerated in Mexico[.]” {Id. at 6). The information sought from these potential alibi
witnesses “related to a potential claim for the ineffective assistance of trial counsel.”
{Id.). Petitioner filed a Petition for Writ of Certiorari in the Colorado Supreme Court,
which was denied on June 20, 2005. (ECF No. 12-34). On July 7, 2005, the district court
issued the Letters Rogatory as directed by the Colorado Court of Appeals. (ECF No. 125 at 18). It was not until February 16, 2012 that Petitioner filed his second Colo. R. Crim.
P. 35(c) motion. Because nearly seven years elapsed between the filing of these two
postconviction motions, the present § 2254 action is clearly time-barred unless. . .
As Petitioner argues, his “initial postconviction motion remained pending before
8

the trial court until his appeal was exhausted on August 19, 2019[.]” (ECF No. 15). The
Court finds Petitioner’s argument flawed for several reasons. First, as Respondents
explain, the Colorado Court of Appeals only has jurisdiction to review a final appealable
order. (ECF No. 12 at 11 n.5 (citing “Colo. App. R. 1 (an appeal may be prosecuted only
from a final appealable order); People v. Davis, 182 P.3d 703, 704 (Colo. App. 2008) (‘A
final appealable order is one that effectively terminates the proceedings in the court
below’).”)). Thus, the appellate court concluded that the proceedings in district court—
i.e., the relief being sought in the first 35(c) motion—had been terminated.
Second, the Colorado Court of Appeals’ remand for the district court to issue
Letters Rogatory did not toll the limitations period because there was no longer any
substantive claim for postconviction relief before the district court to review. Wall v.
Kholi, 131 S.Ct. 1278, 1285 (2011) (finding that ‘“collateral review’ of a judgment or
claim means a judicial reexamination of a judgment or claim in a proceeding outside of
the direct review process.”); see also Woodward v. Cline, 693 F.3d 1289, 1293 (10th
Cir. 2012) (motion requesting results of DNA testing did not toll AEDPA limitations
period because motion was a request for information or discovery and did not request
judicial review of a judgment); Mayv. Workman, 339 F.3d 1236, 1237 (10th Cir. 2003)
(postconviction motions for transcripts and petitions for writs of mandamus relating to
those motions do not toll the one-year time bar); Pursley v. Estep, 216 F. App’x 733,
734 (10th Cir. 2007) (unpublished) (finding that motions for appointment of counsel in
postconviction proceedings pursuant to Colorado Rule 35(c) that did not state adequate
factual or legal grounds for relief did not toll the one-year limitation period); Hodge v.
Greiner, 269 F.3d 104 (2d Cir. 2001) (concluding that a discovery motion does not toll
9

the statute because it “d[oes] not challenge [the] conviction,” but merely seeks “material
that might be of help in developing such a challenge”). Although issuance of the Letters
Rogatory may have been helpful in obtaining information from potential alibi witnesses
to use in a future challenge to the conviction, such a request for information did not
subject Petitioner’s criminal judgment to further review in the district court. Moreover,
the district Court issued the Letters Rogatory on July 7, 2005—thus, at the very latest
the initial 35(c) proceedings ceased on that date as there was no other claim for relief
for the district court to review and no further action for the court to take in relation to the
1997 motion.
Finally, Petitioner filed a second 35(c) motion on February 16, 2012. Had the
initial motion remained pending, there would have been no need to file anew a second
35(c) motion. This further supports the conclusion that the initial motion did not remain
pending for nearly seven years. So, the present § 2254 action initiated on October 18,
2019 is clearly time-barred, unless Petitioner can establish a basis for equitable tolling.
C. Equitable Tolling
Petitioner maintains his application is timely. (See ECF No. 15). His argument—
discussed above in relation to accrual—overlaps with the invocation of equitable tolling.
(Id. at 4-8). Again, Petitioner argues that he “reasonably and detrimentally relied upon
state law for his belief that his [first 35(c)] motion was [a] collateral attack motion []
properly pending.” (Id. at 4). Because of this reasonable belief, Petitioner concludes that
he "should be entitled to equitable tolling of § 2244(d)(1)’s limitations.” (Id. at 5).
Equitable tolling is available to Petitioner “only if he shows (1) that he has been pursuing
his rights diligently, and (2) that some extraordinary circumstance stood in his way and
10

prevented timely filing.” Holland, 560 U.S. at 649 (quotations and citation omitted). “An
inmate bears a strong burden to show specific facts to support his claim of extraordinary
circumstances and due diligence.” Yang v. Archuleta, 525 F.3d 925, 928 (10th Cir.
2008) (brackets and quotations omitted). That burden has not been shouldered here.
To reiterate, Petitioner’s own incorrect interpretation of the interplay between
state and federal law—even if reasonable—caused him to not file this habeas action
sooner. But “it is well established that ignorance of the law, even for an incarcerated pro
se petitioner, generally does not excuse prompt filing.” Marsh, 223 F.3d at 1220. Nor
does Petitioner identify the steps he took to diligently pursue his claims during the years
that intervened between the conclusion of his first 35(c) motion and the filing of the
present habeas application. Therefore, Petitioner fails to “show specific facts to support
his claim of extraordinary circumstances and due diligence” required to invoke equitable
tolling. Yang, 525 F.3d at 928; see also Gibson v. Klinger, 232 F.3d 799, 808 (10th Cir.
2000).
D. Actual Innocence
What remains is Petitioner’s attempt to demonstrate that he is “actually innocent”
of felony murder. (ECF No. 15 at 6-8). He does not. A credible showing of actual
innocence provides a gateway to consideration of an otherwise untimely claim of
constitutional error as an equitable exception to the one-year limitation period. See
McQuiggin v. Perkins, 569 U.S. 383, 386 (2013) (considering claim of actual innocence
in context of one-year limitation period in 28 U.S.C. § 2244(d)). However, “tenable
actual-innocence gateway pleas are rare.” Id. To be credible, a claim of actual
innocence requires a petitioner “to support his allegations of constitutional error with
11

new reliable evidence—whether it be exculpatory scientific evidence, trustworthy
eyewitness accounts, or critical physical evidence—that was not presented at trial."
Schlup v. Delo, 513 U.S. 298, 324 (1995). “[T]he Schlup standard is demanding. The
gateway should open only when a petition presents evidence of innocence so strong
that a court cannot have confidence in the outcome of the trial unless the court is also
satisfied that the trial was free of nonharmless constitutional error." Perkins, 569 U.S. at
401 (citation omitted).
Petitioner submits the following in support of his claim: (1) an affidavit from
Daniel Santillan, a fellow inmate at the Arkansas Valley Correctional Facility; (2) a letter
from the Korey Wise Innocence Project; and (3) a legal memorandum from former
counsel concluding that Petitioner “may very well be innocent of these charges.” (ECF
No. 15 at 12-25). The Court addresses each in turn.
First, the affidavit. In it, Mr. Santillan attests that during the summer of 2003 he
“was approached by and had a conversation with Ramon Valasquez. Ramon Valasquez
informed [Santillan] that he had been present during the [] time of the murders of the
Laras[.]” (ECF No. 15 at 12, H 1). Additionally, “Mr. Valasquez informed [Santillan] that
the wrong person, i.e,. Mr. Matias-Martinez had been convicted of the murders of the
Laras and that Mr. Valasquez had aided one of the persons who had actually committed
the murders of the Laras in escaping to Mexico, by driving him to the border.” (Id.).
Assuming everything Mr. Santillan says is true, Petitioner was convicted of felony
murder. The felony murder statute provides, in pertinent part:
A person commits the crime of murder in the first degree if: [a]cting either
alone or with one or more persons, he or she commits or attempts to commit
robbery ... and, in the course of or in furtherance of the crime that he
12

or she is committing or attempting to commit, or of immediate flight
therefrom, the death of a person, other than one of the participants, is
caused by anyone[.]
Colo. Rev. Stat. § 18-3-102(1 )(b). Thus, even if the affidavit provides "new evidence”
that Valasquez knew “one of the persons” who "had actually committed the murders,” it
does not mean that Petitioner is innocent of committing or attempting to commit robbery
and, in the course of or in furtherance of that crime, the Laras’ death was caused. In
other words, such allegations do not bear on whether he is factually innocent of felony
murder. See U.S. v. Maravilla, 566 Fed. App’x 704, 708 (10th Cir. 2014) (unpublished)
(requiring a petitioner to show actual, factual innocence, not merely legal innocence).
Thus, the affidavit is not reliable exculpatory evidence establishing factual innocence of
the crime charged.
Next, the letter. It is dated January 13, 2020, addressed to Petitioner, and
appears to be from Danielle Buckley of the Korey Wise Innocence Project. (ECF No. 15
at 14). Ms. Buckley states: "We are in the process of assigning your case for preliminary
review and are in need of signed releases from your current and prior attorneys
authorizing us to contact and discuss your case.” (Id.). Such a confirming letter does not
constitute reliable exculpatory evidence.
Finally, the legal memorandum. The memorandum is dated September 15 , 2016
and appears to have been drafted in connection with the appeal of Petitioner’s second
35(c) motion. Quite simply, the legal analysis and conclusions of counsel is not new
reliable evidence. Schlup, 513 U.S. at 324. Nor does anything in the memorandum
present evidence of innocence so strong that the Court cannot have confidence in the
outcome of the trial. See Perkins, 569 U.S. at 401. Accordingly, Petitioner fails to make
13

a credible showing of actual innocence

this action is therefore barred by the one-year

limitation period in § 2244(d).
III.

RECOMMENDATION
For these reasons, this

Magistrate Judge respectfully recommends that the

Application fora Writ of Habeas

Corpus Pursuant to 28 U.S.C. § 2254 (ECF No. 1) be

denied and the action be dismissed with prejudice as untimely.
DATED March 12, 2020.
BY THE COURT:

Gordon P. Gallagher
United States Magistrate Judge

14

Case l:19-cv-02993-LTB-GPG Document 22 Filed 05/13/20 USDC Colorado Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 19-cv-02993-LTB-GPG
ALBERTO MATIAS-MARTINEZ,
Petitioner,

v.
DEAN WILLIAMS, and
THE ATTORNEY GENERAL OF THE STATE OF COLORADO,
Respondents.
ORDER
This matter is before the Court on the Recommendation of United States
Magistrate Judge filed on March 12, 2020. (ECF No. 18). After being granted an
extension of time, Petitioner Alberto Matias-Martinez filed timely written objections to the
Recommendation. (ECF No. 21). The Court has therefore reviewed the
Recommendation de novo in light of the file and record in this case. On de novo review
the Court concludes that the Recommendation is correct for the reasons stated therein.
Accordingly, it is
ORDERED that Petitioner’s written objections (ECF No. 21) are overruled. It is
FURTHER ORDERED that the Recommendation of United States Magistrate
Judge (ECF No. 18) is accepted and adopted. It is
FURTHER ORDERED that the Application for a Writ of Habeas Corpus Pursuant
to 28 U.S.C. § 2254 (ECF No. 1) is DISMISSED WITH PREJUDICE as untimely. It is
FURTHER ORDERED that no certificate of appealability will issue because

1

Case l:19-cv-02993-LTB-GPG Document 22 Filed 05/13/20 USDC Colorado Page 2 of 2

Petitioner has not made a substantial showing of the denial of a constitutional right. It is
FURTHER ORDERED that leave to proceed in forma pauperis on appeal is
denied without prejudice to the filing of a motion seeking leave to proceed in forma
pauperis on appeal in the United States Court of Appeals for the Tenth Circuit. The
Court certifies pursuant to 28 U.S.C. § 1915(a)(3) that any appeal from this dismissal
would not be taken in good faith.
DATED at Denver, Colorado, this 13th day of

May

, 2020.

BY THE COURT:
s/Lewis T. Babcock
LEWIS T. BABCOCK, Senior Judge
United States District Court

2

EXHIBIT A

Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203

DATE FILED: August 19, 201S
CASE NUMBER: 2019SC27I

Certiorari to the Court of Appeals, 2014CA2142
District Court, Weld County, 1992CR873
Petitioner:
Supreme Court Case No:
2019SC271

Alberto Matias Martinez,
v.
Respondent:
The People of the State of Colorado.
ORDER OF COURT

Upon consideration of the Petition for Writ of Certiorari to the Colorado
Court of Appeals and after review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of Certiorari shall be, and the
same hereby is, DENIED.

BY THE COURT, EN BANC, AUGUST 19, 2019.

EXHIBIT B

Colorado Court of Appeals
2 East 14th Avenue
Denver, CO 80203

DATE FILED: August 19. 2019
CASE NUMBER: 2014CA2142

Weld County
1992CR873
Plaintiff-Appellee:
The People of the £tate of Colorado,

Court of Appeals Case
Number:
2014CA2142

v.
Defendant-Appellant:
Alberto Matias Martinez.
MANDATE

This proceeding was presented to this Court on the record on appeal. In
accordance with its announced opinion, the Court of Appeals hereby ORDERS:
ORDERS AFFIRMED
POLLY BROCK
CLERK OF THE COURT OF APPEALS

DATE: AUGUST 19, 2019

